No. 21-226

In the
Supreme Court of the United States
LIBERTARIAN PARTY OF OHIO
AND HAROLD THOMAS,
Petitioners,
v.

DON MICHAEL CRITES, OTTO BEATTY, III,
DENNIS BROMMER, CATHERINE A.
CUNNINGHAM, NATASHA KAUFMAN, A. SCOTT
NORMAN, AND CHARLETA B. TAVARES,
IN THEIR OFFICIAL CAPACITIES,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the
Sixth Circuit
BRIEF OF AMICI CURIAE
LIBERTARIAN NATIONAL COMMITTEE,
GREEN PARTY OF THE UNITED STATES,
CONSTITUTION PARTY, AND COALITION
FOR FREE AND OPEN ELECTIONS
IN SUPPORT OF PETITIONERS
OLIVER B. HALL
Center for Competitive Democracy
P.O. Box 21090
Washington, DC 20009
(202) 248-9294
oliverhall@competitivedemocracy.org

September 15, 2021

WILLIAM P. TEDARDS, JR.
Counsel of Record
1101 30th Street, NW, Suite 500
Washington, DC 20007
(202) 744-1214
BT@tedards.net

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

THE MAJOR PARTY REQUIREMENT
VIOLATES MINOR PARTY MEMBERS’
CONSTITUTIONAL RIGHTS. . . . . . . . . . . . . 6

II.

THE MAJOR PARTY REQUIREMENT
FURTHERS THE PARTISAN
INTERESTS
OF
OHIO’S
PREDOMINANT POLITICAL PARTIES,
NOT LEGITIMATE OR COMPELLING
STATE INTERESTS. . . . . . . . . . . . . . . . . . . . 9

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

ii
TABLE OF AUTHORITIES
Page
CASES
Anderson v. Celebrezze,
460 U.S. 780 (1983) . . . . . . . . . . . . . . . . . 2, 8, 9
Branti v. Finkel,
445 U.S. 507 (1980) . . . . . . . . . . . . . . . . .

4, 8

Burdick v. Takushi,
504 U.S. 428 (1992) . . . . . . . . . . . . . . . . . . . . . 2
Clingman v. Beaver,
544 U.S. 581 (2005) . . . . . . . . . . . . . . . . . . . . . 2
Elrod v. Burns,
427 U.S. 347 (1976) . . . . . . . . . . . . . . . . . . . 4, 8
Illinois Bd. of Elections v. Socialist Workers Party,
440 U.S. 173 (1979) . . . . . . . . . . . . . . . . . . . . . 7
Kusper v. Pontikes,
414 U.S. 51 (1973) . . . . . . . . . . . . . . . . . . . . . . 3
Munro v. Socialist Workers Party,
479 U.S. 189 (1986) . . . . . . . . . . . . . . . . . . . . . 2
Quinn v. Millsap,
491 U.S. 95 (1989) . . . . . . . . . . . . . . . . 4, 5, 6, 8
Timmons v. Twin Cities Area New Party,
520 U.S. 351 (1997) . . . . . . . . . . . . . . . . . . . . 14

iii
United Public Workers v. Mitchell,
330 U.S. 75 (1947) . . . . . . . . . . . . . . . . . . . . . . 6
Washington State Grange v. Washington State
Republican Party,
552 U.S. 442 (2008) . . . . . . . . . . . . . . . . . . . . . 2
Wieman v. Updegraff,
344 U.S. 183 (1952) . . . . . . . . . . . . . . . . 4, 6, 7
Williams v. Rhodes,
393 U.S. 23 (1968) . . . . . . . . . . . . . 5, 7, 8, 9, 11

CONSTITUTION
U.S. Const., amend. I . . . . . . . . . . . . . . . . . . . . . . . 2, 8
U.S. Const., amend. XII . . . . . . . . . . . . . . . . . . . . . . . 9
U.S. Const., art. II, § 1 . . . . . . . . . . . . . . . . . . . . . . . . 9

RULES
Supreme Court Rule 37.2(a) . . . . . . . . . . . . . . . . . . . 1
Supreme Court Rule 37.6. . . . . . . . . . . . . . . . . . . . . . 1

STATUTES
Ohio Rev. Code § 3517.152(A) . . . . . . . . . . . . . 2, 3, 4

iv
OTHER AUTHORITIES
Mark R. Brown, Ballot Fees as Impermissible
Qualifications for Federal Office,
54 Am. U. L. Rev. 1283 (2005) . . . . . . . . . . . 10
Mark R. Brown, Policing Ballot Access: Lessons From
Nader’s 2004 Run for President,
35 Cap. U. L. Rev. 163 (2006) . . . . . . . . . . . . 15
Richard L. Hasen, Entrenching the Duopoly: Why the
Supreme Court Should Not Allow the States to Protect
the Democrats and Republicans From Political
Competition,
1997 S. Ct. Rev. 331 . . . . . . . . . . . . . 12, 13, 14
Samuel Issacharoff & Richard H. Pildes, Politics as
Markets: Partisan Lockups of the Democratic Process,
50 Stan. L. Rev. 643 (1998) . . . . . . . . 10, 11, 12
Libertarian Party, Elected Officials, available at
https://my.lp.org/elected-officials/?page=
CiviCRM&q=civicrm/profile&gid=38&fo
rce=1&crmRowCount=100&reset=1. . . . . . . . 3
Libertarian Party, Statement of Principles, available at
https://www.lp.org/platform/ . . . . . . . . . . . . . . 1
Gregory P. Magarian, Regulating Political Parties
Under a “Public Rights” First Amendment,
44 Wm. & Mary L. Rev. 1939 (2003) . . . 12, 14
Joel Rogers, Two-Party Systems: Pull the Plug,
52 Admin. L. Rev. 743 (2000) . . . . . . . . . . . . 14

v
Richard Winger, Ballot Format: Must Candidates Be
Treated Equally?,
45 Cleve. St. L. Rev. 87 (1997) . . . . . . . . . . . 11

1
INTEREST OF AMICI CURIAE1
The Libertarian National Committee is the governing
body of the Libertarian Party, the third-largest
political party in the United States. The Libertarian
Party was founded in 1971 to elect candidates at all
levels of government who support the principles of
liberty set forth in the party’s Statement of Principles.2
The Green Party of the United States is the fourth
largest political party in the United States. A coalition
of 47 state parties, the National Green Party was
established in 2001 to elect candidates at all levels of
government who support fundamental principles of
non-violence, ecological wisdom, grassroots democracy,
and social justice.
The Constitution Party was formed in 1992 and
recognized by the Federal Election Commission as a
national political party in 1995. Its mission is to elect
candidates at all levels of government who will uphold
the principles of the Declaration of Independence and
the Constitution of the United States.
The Coalition for Free and Open Elections (“COFOE”)

1

Pursuant to Supreme Court Rule 37.2(a) counsel of record for all
parties received timely notice of the intent to file this brief and all
parties have consented to its filing. Pursuant to Rule 37.6, Amici
counsel certifies that no counsel for a party authored this brief in
whole or in part and no person other than Amici Curiae, their
members, or their counsel made a monetary contribution intended
to fund the preparation or submission of this brief.
2

See Libertarian Party, Statement of Principles, available at
https://www.lp.org/platform/ (last visited February 22, 2020).

2
is a nonprofit advocacy organization dedicated to the
idea that full and fair access to the electoral process is
central to democracy. As of August 2021, members of
COFOE include the Libertarian Party, the Green
Party, the Constitution Party, the American Solidarity
Party, the Reform Party, the Prohibition Party, and
the Socialist Party, USA.
The interests of these Amici and other smaller political
parties are frequently implicated by state election
laws, including those that burden candidates and
voters who seek to participate in the political process
without joining the Democratic Party or the
Republican Party. Accordingly, these parties
frequently must present their views on such issues to
the courts. For example, the Libertarian Party and its
state affiliates have repeatedly presented their views
on such issues to this Court, both as a party (for
example, in Washington State Grange v. Washington
State Republican Party, 552 U.S. 442 (2008), and
Clingman v. Beaver, 544 U.S. 581 (2005)) and as an
amicus (for example, in Burdick v. Takushi, 504 U.S.
428 (1992), Munro v. Socialist Workers Party, 479 U.S.
189 (1986), and Anderson v. Celebrezze, 460 U.S. 780
(1983)).
These Amici and other smaller parties have a direct
interest in this case in that, by operation of Ohio Rev.
Code § 3517.152(A), their members in Ohio are
prohibited from serving on the Ohio Elections
Commission. This prohibition harms not only the core
First Amendment rights of the minor party voters
subject to it, but also those of the parties themselves,
who cannot exercise their freedom to develop and grow
as parties, and to participate in all aspects of the

3
political and electoral processes in Ohio on an equal
basis with the state’s two major parties.
The Libertarian National Committee, for example, has
a direct interest in that members of the Libertarian
Party reside in the State of Ohio and are registered to
vote as Libertarian. Further, in each election cycle, the
Libertarian Party runs hundreds of candidates
nationwide for local, state and federal office. There are
currently no fewer than 229 Libertarian Party
members who have been elected to serve in public
office in the United States. See Libertarian Party,
Elected Officials, available at https://my.lp.org/electedofficials/?page=CiviCRM&q=civicrm/profile&gid=38
&force=1&crmRowCount=100&reset=1 (last visited
September 13, 2021).
If other states adopt prohibitions like the one in Ohio
Rev. Code § 3517.152(A), the ability of members of
these Amici and other minor parties to continue their
service in public office would be jeopardized. Such a
result would imperil the “basic function” of these
parties “to select the candidates for public office to be
offered to the voters at general elections.” Kusper v.
Pontikes, 414 U.S. 51, 58 (1973).
The Libertarian Party, Green Party, Constitution
Party, and the Coalition for Free and Fair Elections
therefore submit this brief as Amici Curiae in support
of Petitioners, because the prohibition set forth in Ohio
Rev. Code § 3517.152(A) violates their First
Amendment rights and furthers, not legitimate state
interests, but the partisan interests of the two major
political parties.

4
SUMMARY OF ARGUMENT
Ohio Rev. Code § 3517.152(A) categorically excludes
members of minor parties from serving on the Ohio
Elections Commission. It does so pursuant to a major
party requirement which precludes anyone who is a
member of a political party other than the Republican
Party or the Democratic Party from serving on the
Elections Commission. As such, the major party
requirement violates this Court’s long-settled
precedent invalidating statutes that condition public
service on “patently arbitrary or discriminatory”
grounds. Wieman v. Updegraff, 344 U.S. 183, 192
(1952).
If a requirement like this were applied to impose a
prohibition against Republicans or Democrats serving
on Ohio’s Election Commission, there would be little
doubt as to its unconstitutionality. See Id. at 191-92.
Time and again, this Court has held that the
Constitution does not permit the federal or a state
government to condition public service – either as an
elected official, an appointed official, or an employee –
solely upon the official’s or employee’s political
affiliation. See, e.g., Quinn v. Millsap, 491 U.S. 95
(1989); Branti v. Finkel, 445 U.S. 507 (1980); Elrod v.
Burns, 427 U.S. 347 (1976). But Republicans and
Democrats enjoy no special protection under the
Constitution. Indeed, the Constitution makes no
mention of political parties, much less does it afford a
higher degree of protection to any two particular
parties. Consequently, just as Ohio could not bar
Republicans or Democrats from serving on its
Elections Commission based on their political
affiliation, it may not impose such a prohibition

5
against members of the minor political parties.
This Court’s ballot access jurisprudence is instructive.
In 1968, when the Court first ruled on the
constitutionality of a state ballot access law, it
concluded that the state cannot restrict access to the
ballot in a manner that “in effect, tends to give”
Republicans and Democrats a “monopoly on the right
to have people vote for or against them.” Williams v.
Rhodes, 393 U.S. 23, 32 (1968)). Here, the major party
requirement does not merely “tend” to give
Republicans and Democrats a monopoly on the right to
serve on the Elections Commission: it imposes an
absolute, categorical prohibition against all other
political party members from serving in that capacity.
That Ohio accomplishes this impermissible purpose by
restricting eligibility for appointment to public office
rather than by restricting access to the ballot is of no
moment, because constitutional protection extends to
those who seek appointed office. See Quinn, 491 U.S.
95.
“Good government” justifications for the major party
requirement, such as “balancing out political party
representation,” should therefore be treated with
skepticism. The major party requirement does not
further Ohio’s asserted interest in a politically
balanced government, but rather assures an elections
commission narrowly confined to members of two –
and only two – political parties. And there is ample
reason to conclude that those two parties, who have
jointly imposed the major party requirement upon
their fellow citizens, did so to further their own
partisan interests rather than any legitimate state
interest. Indeed, the academic scholarship

6
overwhelmingly suggests that the major party
requirement is precisely the sort of partisan
interference that led the Framers to view “factions”
with such disdain. This Court should not permit
Republicans and Democrats to seize for themselves a
permanent monopoly on service as a member of the
Ohio Elections Commission.
ARGUMENT
I.

THE MAJOR PARTY REQUIREMENT
VIOLATES MINOR PARTY MEMBERS’
CONSTITUTIONAL RIGHTS

Does the Constitution of the United States of America
permit the State of Ohio to prohibit members of the
Republican Party or the Democratic Party from serving
on the Ohio Elections Commission? It does not.
“[C]onstitutional protection does extend to the public
servant whose exclusion pursuant to a statute is
patently arbitrary or discriminatory.” Wieman, 344
U.S. at 192. Thus, while this Court has held that the
federal government may “properly bar its employees
from certain types of political activity thought inimical
to the interests of the Civil Service,” it found it
necessary to “cast this holding into perspective by
emphasizing that Congress could not ‘enact a
regulation providing that no Republican, Jew or Negro
shall be appointed to federal office, or that no federal
employee shall attend Mass or take any active part in
missionary work.’” Id. at 191-92 (quoting United Public
Workers v. Mitchell, 330 U.S. 75, 100 (1947)). The same
constitutional protection extends to public servants
who serve in state offices, including offices filled by
appointment. See Quinn, 491 U.S. 95 (holding that

7
property ownership requirement as qualification for
appointment to local office violated the Equal
Protection Clause).
But if the Constitution does not permit Ohio to
preclude Republicans or Democrats from serving on its
Elections Commission, on what basis could the
Constitution permit Ohio to impose that same
prohibition on other citizens, solely by virtue of their
partisan affiliation? There is none. Yet, that is what
the major party requirement does. Thus, the major
party requirement is unconstitutional under this
Court’s long-settled precedent. The major party
requirement categorically excludes voters who are
members of non-major political parties. The categorical
exclusion of voters from appointment to such offices,
based solely on their political affiliation, is no less
invidious as applied to smaller party members than it
would be as applied to Republicans and Democrats. See
Wieman, 344 U.S. at 191-92.
This Court has consistently held that citizens who
choose not to associate with the Republican Party or
Democratic Party have the “freedom to associate as a
political party, a right we have recognized as
fundamental.” Illinois Bd. of Elections v. Socialist
Workers Party, 440 U.S. 173, 184 (1979) (citing
Williams, 393 U.S. at 30-31). This entails that nonmajor political parties have a constitutional right to
run candidates for elective office. See Illinois Bd. of
Elections, 440 U.S. at 184 (right to form a party “has
diminished practical value if the party can be kept off
the ballot”); Williams, 393 U.S. at 31 (right to form a
party “means little if a party can be kept off the
election ballot and thus denied an equal opportunity to

8
win votes”); see also Anderson v. Celebrezze, 460 U.S.
780, 793 (1983) (holding that burdens on new or small
parties and independent candidates impinge on First
Amendment associational choices). As the Court
observed in Williams, there is “no reason why two
parties should retain a permanent monopoly on the
right to have people vote for or against them.”
Williams, 393 U.S. at 32.
These same principles apply equally to “the right to be
considered for public service” by appointment to public
office. See Quinn, 491 U.S. at 105. Just as there is “no
reason why two parties should retain a permanent
monopoly on” elected offices, there is no reason why
two parties should retain a permanent monopoly on
appointed offices. Both kinds of offices, after all,
represent the people. And this Court’s cases make
clear that exclusion because of political affiliation can
be no less pernicious in the workplace than it is at the
polling place. See, e.g., Branti, 445 U.S. at 516 (First
Amendment protects public employees from discharge
based on speech and private belief); Elrod, 427 U.S. at
355-58 (requirement that public employees pledge
allegiance to Democratic Party violates First
Amendment).
This is not to say that a state’s use or consideration of
political affiliation is always impermissible. On the
contrary, the political affiliation of candidates is often
printed on ballots, and it is not only known but used by
voters to aid in their selections at the polls. Similarly,
political affiliation can be considered by governors in
making appointments to public offices -- arguably
including the Ohio Elections Commission. But the
ability to use information such as political affiliation to

9
make appointments to public office is a far cry from
categorical exclusion from appointment to such offices
based on political affiliation. Just as a law that
prohibits citizens from voting for a minor party is
unconstitutional, see Anderson, 460 U.S. at 793;
Williams, 393 U.S. at 32, a law like Ohio’s major party
requirement, which prohibits the appointment of
minor party members, is unconstitutional.
II.

THE MAJOR PARTY REQUIREMENT
FURTHERS THE PARTISAN INTERESTS
OF OHIO’S PREDOMINANT POLITICAL
PARTIES, NOT LEGITIMATE OR
COMPELLING STATE INTERESTS

This Court’s decisions in cases like Anderson and
Williams are consistent with the Framers’ conception
of the role of political parties in regulating the nation’s
political and electoral processes. The original
Constitution expressly recognized the likelihood that
multiple presidential candidates would receive votes in
the Electoral College. Should no single candidate win
a majority of Electoral College votes, Article II stated,
the House of Representatives would pick the President
“from the five highest on the List.” See U.S. Const., art.
II, § 1. And when the Twelfth Amendment was ratified
in 1804, it provided that the candidates who received
“the highest numbers not exceeding three on the list of
those voted for as President” would proceed for
selection by the House. Thus, both the Framers of 1787
and those a half a generation later expected that more
than two political parties would exist and play an
active role in the nation’s political process.
The Framers feared the damage that two competing

10
factions could do to the republican form of government
they sought to establish. As Professors Issacharoff and
Pildes explain, “the constitutional structure was
specifically intended to preclude the rise of political
parties, which were considered the quintessential form
of ‘faction.’” Samuel Issacharoff & Richard H. Pildes,
Politics as Markets: Partisan Lockups of the
Democratic Process, 50 Stan. L. Rev. 643, 713 (1998)
(footnote omitted). “[W]hen the Constitution was
formed and early elections held, the very idea of
political parties was anathema to the reigning
conception of democracy ….” Id. at 677.
For the nation’s first 150 years, the American political
system hewed more closely to the Framers’ intent. “In
the nineteenth century,” Professors Issacharoff and
Pildes explain, “American partisan and ideological
competition was far more robust. Third parties were a
consistent and enduring presence, including the
Liberty, Free Soil, Know-Nothing, Constitutional
Union, Southern Democrat, Greenback, People’s, and
Prohibition Parties.” Id. at 644 (footnote omitted). The
resulting robust field of candidates translated into
electoral interest: “[v]oter turnout dwarfed that in the
present era.” Id. (footnote omitted). Meanwhile,
because they “generated more intense and pervasive
personal ties,” id., pluralistic political parties thrived.
The dawn of the Twentieth Century and the advent of
official state ballots supplied the two dominant
political parties of the day, the Republicans and
Democrats, with the ability to begin unraveling the
Framers’ intent. See Mark R. Brown, Ballot Fees as
Impermissible Qualifications for Federal Office, 54 Am.
U. L. Rev. 1283, 1288 (2005) (“By 1916, the Australian

11
pre-printed paper ballot had become the universal
norm throughout the United States. … The
development of pre-printed paper ballots … supplied
government its first real opportunity to limit the
number of candidates running for office”). By 1950, in
the midst of the Second Red Scare, states across the
country began categorically excluding minor parties
and independent candidates from their official ballots.
See, e.g., Richard Winger, Ballot Format: Must
Candidates Be Treated Equally?, 45 Cleve. St. L. Rev.
87, 90-92 (1997) (describing how experience in Ohio
and the Democrats’ and Republicans’ fear of Socialist
and Progressive candidates resulted in party
restrictions on ballot access). Such categorical
exclusions continued until at least 1968, when this
Court in Williams ordered Ohio to place George
Wallace and his American Independent Party on
Ohio’s presidential ballot. See Williams, 393 U.S. 23.
Professors Issacharoff and Pildes have observed that
“state regulations that purportedly reflect state
interests in ‘stability’ or the ‘avoidance of factionalism’
can be seen as tools by which existing parties seek to
raise the cost of defection and entrench existing
partisan forces more deeply into office.” Issacharoff &
Pildes, supra, at 643. Far from serving a legitimate
state interest, history teaches that duopolistic
restrictions serve only the interests of the nation’s two
predominant political parties. This result is not
surprising. See id. at 682-83 (“we should expect the two
dominant parties to seek to close off avenues of thirdparty challenge. … Such efforts to close off third-party
challenges should be a shared objective of both of the
major parties, regardless of their immediate position
as the majority or opposition party”).

12
Consequently, “good government” claims, like that
adopted by the Court of Appeals here -- that Ohio’s
purpose is “balancing out political party
representation” -- should be met with a measure of
skepticism. (See Petition at 10-11.) Not only does
history cast a large shadow of doubt over such “good
government” claims, see, e.g., Issascharoff & Pildes,
supra, at 682-83, but also, common sense and logic
refute it outright. It is far more likely that the
Republicans and Democrats have joined to legislate a
categorical ban on their competitors serving in
appointed office for the same reason they seek to
exclude outsiders from elected office – to maintain
power for themselves. See Gregory P. Magarian,
Regulating Political Parties Under a “Public Rights”
First Amendment, 44 Wm. & Mary L. Rev. 1939, 1993
(2003) (“‘partisan lockups’ are easiest to identify when
a single political party controls a jurisdiction, but they
may also result from the two major parties’ collective
efforts to bar minor parties from the political stage”)
(footnotes omitted).
These types of “good government” arguments are not
new. For some time, “responsible party government
scholars [] have argued that the two-party system
promotes political stability, combats factionalism, and
provides a valuable voting cue.” Richard L. Hasen,
Entrenching the Duopoly: Why the Supreme Court
Should Not Allow the States to Protect the Democrats
and Republicans From Political Competition, 1997 S.
Ct. Rev. 331, 342. “[T]hese scholars,” however, “have
not proven that the two-party system, especially the
modern system since the advent of capital-intensive,
candidate-centered campaigns, actually has these
effects.” Id. Professor Hasen offers at least three good

13
reasons why the Court should be skeptical of
speculative empirical claims made in support of
legislation favoring the two-party system:
First, there is a severe agency problem
here: virtually all of the legislators who
will make these decisions are members of
one of the two major political parties, and
the choice may be less the product of
reason than of self-interest. … Second,
there are informational losses associated
with restrictions on third parties. …
Favoring the two-party system ultimately
provides voters with less information
about the choices available to them in
terms of candidates, parties, and issues.3
… Finally, the lack of a competitive
political market may have other costs as
well. … A strong duopoly could make it
less likely that the Democrats and
Republicans will feel pressure to become
the encompassing parties that
responsible party government theorists
hope they will become.
Id. at 343-44, 358, 360 (footnote added). For these

3

In this case, for example, the Ohio Elections Commission allowed
the two major parties to exclude all minor party candidates from
the three debates conducted during Ohio’s 2018 gubernatorial
campaign, thereby depriving Ohio voters of important information
about the choices available to them. The Libertarian Party of Ohio
filed two complaints challenging the legality of staging debates for
the exclusive benefit of the Democratic and Republican
candidates. The Ohio Elections Commission dismissed both
complaints with no explanation. (See Petition at 7-9.)

14
reasons, “the unproven conjecture that the [two-party]
system maintains political stability” cannot be
sustained. Id. at 358. Instead, “circumstantial evidence
and underlying theory point in the opposite direction.
In short, neither political stability nor antifactionalism
justifies the Supreme Court’s decision to favor the twoparty system.” Id. at 360 (discussing Timmons v. Twin
Cities Area New Party, 520 U.S. 351, 367 (1997)
(concluding that “the States’ interest permits them to
enact reasonable election regulations that may, in
practice, favor the traditional two party system”).
Many scholars have echoed this view. Professor
Magarian, for example, has observed that “[t]he theory
of responsible party government reflects a pessimistic
and elitist view of politics.” Magarian, supra, at 1991.
“The trouble with this vision is that its fixation on
stability exacts a heavy price in political vitality.
Members of the political community, especially but not
exclusively those who are uncomfortable in the major
party coalitions, have little reason to participate in the
political process.” Id. Consequently, “[i]n recent years,
the legal literature has revealed an increasing level of
concern about the judiciary’s embrace of the
responsible party government theory. A diverse group
of academic commentators has questioned the major
party duopoly’s representative character and
effectiveness and, accordingly, the Court’s role in
sustaining the duopoly.” Id. at 1992; see, e.g., Joel
Rogers, Two-Party Systems: Pull the Plug, 52 Admin.
L. Rev. 743 (2000) (arguing that the modern duopoly
has not achieved good government and charging the
major parties with two central shortcomings: failure to
develop and implement coherent programs, and
insufficient representation of partisan and ideological

15
minorities); Mark R. Brown, Policing Ballot Access:
Lessons From Nader’s 2004 Run for President, 35 Cap.
U. L. Rev. 163, 169 (2006) (“Far from facilitating a
robust marketplace of ideas, America’s two-party
system often suppresses meaningful discussion”
(footnote omitted)).
The reality is that Ohio’s major party requirement
does not foster good government within any
understandable sense of those words. It does not
promote nonpartisanship. It does not in a meaningful
way serve as a proxy for people’s preferences. It does
not foster principled developments in the law. It does
not obviate the possibility of political gamesmanship.
It has nothing to do, in short, with achieving
constitutionally acceptable political balance. Far from
it. The major party requirement is designed to achieve
an unconstitutional imbalance in the State’s electoral
system, and it achieves that purpose. It is therefore
unconstitutional.
CONCLUSION
For these reasons, and the reasons stated in the
Petition, the Petitioner’s Writ of Certiorari should be
granted.
September 15, 2021

16
Respectfully submitted,
WILLIAM P. TEDARDS, JR.
Counsel of Record
1101 30th Street, NW, Suite 500
Washington, DC 20007
(202) 744-1214
BT@tedards.net
OLIVER B. HALL
Center for Competitive Democracy
P.O. Box 21090
Washington, DC 20009
(202) 248-9294
oliverhall@competitivedemocracy.org
Counsel for Amici Curiae

